STA,TE

oF ALABAMA

OFFIGE oF THE ATToRNEY GENERAL
5OT WASHINGTONAVENUE
P.O. BOX300t52

STEVENT. MARSHALL

December

15

,

2O2O

MONTGOMERY, AL 36t3OOt52

(3g,4t242"73OO

W.AGO.AUBAMA,GOV

Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: James u. Alabama
Case No. 20-708

Dear Mr. Harris:

I am writing to request an extension of time to file the State of
Alabama's brief in opposition in the above-styled case pursuant to
Rule 30.4, Sup.Ct.R. The State's brief in opposition is due in this
Court on December 23, 2O2O. Due to numerous conflicts involving
other cases, as well as ongoing disruptions caused by the current
health measures, undersigned counsel for the State of Alabama
requests an additional 30 days. The State's brief in opposition
would then be due on January 22, 2021.
Thank you for your assistance in this matter.
Sincerely,

s/ Richard D. Anderson
Richard D. Anderson
Assfstant Attorney General
CC:

Matthew A. Bailey, Counsel of Record for Joe Nathan James
mb ailelr@mxlawfirm. co m

